      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                         Washington, D.C. 20201




December 23, 2011

TO:            Marilyn Tavenner
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Review of Excluded Providers in the Medicare Part D Program (A-07-10-06004)


The attached final report provides the results of our review of excluded providers in the
Medicare Part D program.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov. We look
forward to receiving your final management decision within 6 months. Please refer to report
number A-07-10-06004 in all correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




         REVIEW OF
    EXCLUDED PROVIDERS IN
        THE MEDICARE
       PART D PROGRAM




                       Daniel R. Levinson
                        Inspector General

                         December 2011
                         A-07-10-06004
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Medicare Part D Prescription Drug Coverage

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
prescription drug benefit. Under Part D, which began January 1, 2006, individuals entitled to
benefits under Medicare Part A or enrolled in Medicare Part B may obtain drug coverage.

The Centers for Medicare & Medicaid Services (CMS), which administers Medicare, contracts
with private prescription drug plans and Medicare Advantage plans (collectively known as
“sponsors”) to offer prescription drug benefits to eligible individuals under Medicare Part D.
Every time a beneficiary fills a prescription covered under Part D, the sponsor must submit
prescription drug event (PDE) data, including drug cost and payment information, to CMS.
Sponsors are required to submit final PDE data within 6 months after the end of the coverage
year.

Excluded Providers

Section 1862(e)(1) of the Act and Federal regulations at 42 CFR § 1001.1901 (b)(1) prohibit
payment under Medicare, Medicaid, and other Federal health care programs for prescriptions
written by physicians or other health care professionals who are excluded from Federal health
care programs (excluded providers) when the person dispensing the prescription knows or has
reason to know of the exclusion until these providers are reinstated. CMS’s Prescription Drug
Benefit Manual, chapter 9, § 50.2.6.3.3, states that sponsors should (a) review the exclusion list
maintained by the U.S. Department of Health and Human Services, Office of Inspector General
(OIG), to identify excluded providers and (b) have a process in place to deny claims for
prescriptions written by excluded providers.

Pursuant to section 1128 of the Act, OIG established a nationwide program to exclude
individuals and entities from participation in Medicare, Medicaid, and other federally funded
health care programs. To administer this program, OIG maintains a database of all currently
excluded providers called the List of Excluded Individuals/Entities. Monthly, OIG provides
updates to CMS. CMS uses the monthly updates to maintain its database of excluded providers,
the Medicare Exclusion Database (MED).

Prescriber Identifiers

CMS requires sponsors to enter a prescriber identifier in the PDE record for all pharmacy claims
submitted under the Part D program. CMS guidance to sponsors states that sponsors should
make all reasonable efforts to use a prescriber’s national provider identifier (NPI) in the
prescriber identifier data field. (NPIs are assigned by CMS to identify health care providers and
other entities in electronic health care transactions.) Because not all prescribers are required to




                                                 i
have an NPI, CMS guidance also makes provisions for the use of alternative identifiers, such as
State license numbers, in this data field.

OBJECTIVE

Our objective was to determine whether CMS accepted PDE data submitted by sponsors for
prescriptions written under the Part D program by excluded providers.

SUMMARY OF FINDINGS

Contrary to Federal law, CMS accepted some PDE data submitted by sponsors for prescriptions
written under the Part D program by excluded providers and used these PDE data to adjust
Medicare Part D payments to sponsors at the end of the plan year. Of approximately
$185 billion in gross drug costs included in sponsors’ PDE data for calendar years 2006 through
2008, CMS accepted PDE data with gross drug costs totaling $15,079,608 for prescriptions
written by excluded providers.

Furthermore, CMS accepted PDE data with gross drug costs totaling an additional $1,985,315
for prescriptions that may have been written by excluded providers. The PDE records for these
prescriptions contained State license numbers as prescriber identifiers, but State license numbers
are not unique identifiers and may be duplicated from one State to another. Therefore, State
license numbers cannot reliably verify that a provider is not excluded.

CMS accepted PDE data submitted by sponsors for prescriptions written by excluded providers
because it had inadequate internal controls in place during our review. Specifically, CMS did
not provide sponsors with access to the MED to accurately and effectively identify excluded
providers. In addition, CMS allowed sponsors to use State license numbers. CMS also did not
have an edit in place to reject PDE data submitted by sponsors for prescriptions written by
excluded providers.

RECOMMENDATIONS

We recommend that CMS:

  •   to resolve improper Part D payments made for prescriptions written by excluded providers,
      reopen and revise calendar year 2006 through 2008 final payment determinations to
      remove prescriptions written by excluded providers and

  •   strengthen internal controls to ensure that, in accordance with Federal regulations,
      prescriptions written by excluded providers are not paid under the Part D program by:

       o researching and incorporating into the MED all of the provider identifiers that CMS
         allows sponsors to use,

       o providing sponsors with access to the MED and requiring them to use the MED to
         ensure that prescriptions written by excluded providers are not accepted,


                                                ii
       o prohibiting sponsors from using State license numbers in the prescriber identifier
         field of PDE records, and

       o establishing an edit that would reject any PDE data submitted by sponsors for
         prescriptions written by excluded providers.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our first recommendation but
added that it would explore the feasibility and cost-effectiveness of implementing it. CMS
partially concurred with the four parts of our second recommendation and described corrective
actions that it had taken or planned to take.

CMS’s comments appear in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in CMS’s comments has caused us to change our findings or recommendations. As the
administrator of the Medicare Part D program, CMS has the primary responsibility to ensure that
sponsors are administering their Part D plans appropriately.




                                              iii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicare Part D Prescription Drug Coverage .....................................................1
              Excluded Providers ..............................................................................................1
              Prescriber Identifiers ............................................................................................3

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................3
               Objective ..............................................................................................................3
               Scope ....................................................................................................................3
               Methodology ........................................................................................................4

FINDINGS AND RECOMMENDATIONS ............................................................................4

          PRESCRIPTIONS WRITTEN BY EXCLUDED PROVIDERS ....................................5

          INADEQUATE CONTROLS TO PREVENT ACCEPTANCE OF
            PRESCRIPTIONS WRITTEN BY EXCLUDED PROVIDERS ...............................5

          RECOMMENDATIONS .................................................................................................6

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS AND
            OFFICE OF INSPECTOR GENERAL RESPONSE .................................................6
               Controls for Researching and Incorporating All of the Provider Identifiers
                 Into the Medicare Exclusion Database ...........................................................7
               Controls for Providing Sponsors Access to the Medicare Exclusion Database
                 and Requiring Them To Use It To Identify Excluded Providers ....................7
               Controls for Prohibiting Sponsors From Using State License Numbers
                 in the Prescriber Identifier Field of Prescription Drug Event Records ...........7
               Controls for Establishing an Edit That Would Reject Prescription
                 Drug Event Data Submitted by Sponsors for Prescriptions
                 Written by Excluded Providers .......................................................................8

APPENDIX

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS
                                              INTRODUCTION

BACKGROUND

Medicare Part D Prescription Drug Coverage

Title I of the Medicare Prescription Drug Program, Improvement, and Modernization Act of
2003 amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare
Part D prescription drug benefit. 1 Under Part D, which began January 1, 2006, individuals
entitled to benefits under Part A or enrolled in Part B may obtain drug coverage.

The Centers for Medicare & Medicaid Services (CMS), which administers Medicare, contracts
with private prescription drug plans and Medicare Advantage plans (collectively known as
“sponsors”) to offer prescription drug benefits to eligible individuals under Medicare Part D.
Every time a beneficiary fills a prescription covered under Part D, the sponsor must submit
prescription drug event (PDE) data to CMS. PDE data include drug cost and payment
information that enables CMS to administer the Part D benefit. Pursuant to 42 CFR
§ 423.343(c)(1), sponsors must submit final PDE data to CMS within 6 months after the end of
the coverage year.

For calendar years (CY) 2006 through 2008, sponsors submitted final PDE data associated with
approximately $185 billion in gross drug costs. CMS defines gross drug costs as the sum of the
following PDE payment fields: noncovered plan pay amount; covered plan pay amount; patient
pay amount; low-income cost-sharing payment; other true out-of-pocket costs; and patient
liability reduction as a result of another payer amount, which would include amounts paid by
third-party payers such as private group health plans (Instructions: Requirements for Submitting
Prescription Drug Event Data, section 7.2.3).

Sections 1860D-14 and -15 of the Act require CMS to pay sponsors for Part D benefits
prospectively based in part on information in the sponsors’ approved annual bids. After the close
of the coverage year, CMS is responsible for reconciling the prospective payments with certain
actual costs incurred by sponsors and for determining the amount that each sponsor will owe to
or receive from Medicare for the plan year. CMS’s reconciliations are based on sponsors’ final
PDE data.

Excluded Providers

Section 1862(e)(1) of the Act and Federal regulations at 42 CFR § 1001.1901(b)(1) prohibit
payment under Medicare, Medicaid, and other Federal health care programs for prescriptions
written by physicians or other health care professionals who are excluded from Federal health
care programs (excluded providers) when the person dispensing the prescription knows or has
reason to know of the exclusion until these providers are reinstated. CMS’s Prescription Drug
Benefit Manual, chapter 9, § 50.2.6.3.3, states that sponsors should (a) review the exclusion list
maintained by the U.S. Department of Health and Human Services, Office of Inspector General


1
    P.L. No. 108-173 § 101; the Act, § 1860D-1(a); 42 U.S.C. § 1395w-101(a).


                                                       1
(OIG), to identify excluded providers and (b) have a process in place to deny claims for
prescriptions written by excluded providers.

Pursuant to section 1128 of the Act, OIG established a nationwide program to exclude
individuals and entities from participation in Medicare, Medicaid, and other federally funded
health care programs. OIG must exclude a provider convicted of a criminal offense related to
Medicare or any State health care program, a criminal offense related to patient abuse or neglect,
or a felony related to other health care fraud or to the misuse of controlled substances. In
addition, OIG, at its discretion, may exclude a provider convicted of a misdemeanor health care
fraud offense, a criminal offense related to fraud in non-health-care programs, an obstruction of
an investigation, or a misdemeanor controlled substance offense. The effect of an OIG exclusion
is that no Federal health care program may pay for any items or services furnished, ordered, or
prescribed by an excluded provider when the person dispensing the prescription knows or has
reason to know that the prescriber is excluded. OIG can waive an exclusion because a provider
is the sole community physician or sole source of essential specialized services in a community.

To administer this program, OIG maintains a database of all currently excluded providers called
the List of Excluded Individuals/Entities (LEIE). The LEIE is available on the OIG Web site in
two formats: an online searchable database and a downloadable database. The online searchable
database allows individuals to search for an excluded provider and to confirm the identity of an
individual using a Social Security number (SSN) or employer identification number (EIN). The
downloadable database includes an excluded provider’s specialty, exclusion dates, and unique
physician identifier number (UPIN) but does not include an excluded provider’s SSN or EIN.
OIG, Office of Investigations, obtains the national provider identifier (NPI) of the excluded
providers as well; however, the NPI is not available on the searchable database or the
downloadable database. 2 Monthly, OIG provides updates to CMS that include excluded
providers’ SSNs and EINs. CMS uses the monthly updates to maintain its database of excluded
providers, the Medicare Exclusion Database (MED).

CMS developed the MED to store and allow the retrieval of information that helps Medicare
ensure that payments are not made to excluded providers for services furnished during their
exclusion periods. The MED identifies the same excluded providers as the LEIE and contains
additional identifying information, such as an excluded provider’s NPI.

CMS provides the MED files to various entities, including Medicare administrative contractors,
fiscal intermediaries, and Medicaid State agencies, involved in administering the Medicare and
Medicaid programs under the oversight of CMS. However, CMS does not provide this
information to sponsors.




2
 UPINs were formerly assigned by CMS to identify physicians enrolled in the Medicare program. CMS
discontinued the use of UPINs as of June 2007 and replaced them with NPIs. NPIs are assigned by CMS to identify
health care providers and other entities for use in electronic health care transactions.



                                                       2
Prescriber Identifiers

Federal regulations at 45 CFR § 162.406 designate the NPI as the standard unique health
identifier for electronic health care transactions. Entities that are required to obtain NPI numbers
include health plans and health care providers that transmit any health information electronically
in connection with transactions covered by Federal regulations (45 CFR § 160.102(a)).

CMS requires sponsors to enter a prescriber identifier in the PDE record for all pharmacy claims
submitted under the Part D program. In May 2008, CMS indicated in a memorandum to
sponsors that it prefers that sponsors use the NPI to complete the prescriber identifier data field, 3
but CMS does not require all prescribers to have an NPI. When the prescriber does not have an
NPI or when the pharmacy cannot obtain a prescriber’s NPI, the sponsor may substitute an
alternative identifier in the prescriber identifier data field. Alternative identifiers that sponsors
have used include Drug Enforcement Agency (DEA) numbers, State license numbers, and
UPINs. 4

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether CMS accepted PDE data submitted by sponsors for
prescriptions written under the Part D program by excluded providers.

Scope

The audit scope covered approximately $185 billion in gross drug costs reflected in sponsors’
final PDE data for CYs 2006 through 2008.

We limited our internal control review to CMS’s policies and procedures for preventing
reimbursement of prescriptions written under the Part D program by excluded providers. We did
not review the accuracy or completeness of the PDE data.

We conducted our audit from March 2009 to August 2010.




3
 CMS memorandum, “Prescriber Identifier on Part D NCPDP [National Council Prescription Drug Program]
Pharmacy Claims Transactions,” May 1, 2008.
4
  A DEA number is a unique number assigned by DEA to handlers of controlled substances, including
manufacturers, hospitals, pharmacies, and prescribers. A State license number is assigned to health care providers
by the various State licensing boards. CMS guidance to sponsors does not include provisions for the use of UPINs
as alternative identifiers; however, during our audit period, UPINs were used as prescriber identifiers in some PDE
records.



                                                         3
Methodology

To accomplish our objective, we:

  •   reviewed applicable Federal laws, regulations, and guidance;

  •   interviewed CMS officials responsible for the administration of the Part D program and
      OIG, Office of Investigations, officials responsible for the administration of the LEIE;

  •   obtained the LEIE database as of May 31, 2009;

  •   obtained prescriber identifiers associated with excluded providers, including DEA
      numbers, State license numbers, and additional UPINs not included in the LEIE;

  •   obtained the PDE records for prescriptions written under the Part D program by excluded
      providers for CYs 2006 through 2008; and

  •   discussed our findings with CMS officials on December 16, 2010.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Contrary to Federal law, CMS accepted some PDE data submitted by sponsors for prescriptions
written under the Part D program by excluded providers and used these PDE data to adjust
Medicare Part D payments to sponsors at the end of the plan year. Of approximately
$185 billion in gross drug costs included in sponsors’ PDE data for CYs 2006 through 2008,
CMS accepted PDE data with gross drug costs totaling $15,079,608 for prescriptions written by
excluded providers.

Furthermore, CMS accepted PDE data with gross drug costs totaling an additional $1,985,315
for prescriptions that may have been written by excluded providers. The PDE records for these
prescriptions contained State license numbers as prescriber identifiers, but State license numbers
are not unique identifiers and may be duplicated from one State to another. Therefore, State
license numbers cannot reliably verify that a provider is not excluded.

CMS accepted PDE data submitted by sponsors for prescriptions written by excluded providers
because it had inadequate internal controls in place during our review. Specifically, CMS did
not provide sponsors with access to the MED to accurately and effectively identify excluded
providers. In addition, CMS allowed sponsors to use State license numbers. CMS also did not
have an edit in place to reject PDE data submitted by sponsors for prescriptions written by
excluded providers.


                                                4
PRESCRIPTIONS WRITTEN BY EXCLUDED PROVIDERS

Section 1862(e)(1) of the Act and Federal regulations at 42 CFR § 1001.1901(b)(1) prohibit
payment under Medicare, Medicaid, and other Federal health care programs for prescriptions
written by excluded providers when the person dispensing the prescription knows or has reason
to know that the prescriber is excluded until a provider is reinstated.

Contrary to Federal regulations, of approximately $185 billion in gross drug costs included in
sponsors’ PDE data during CYs 2006 through 2008, CMS accepted PDE data with gross drug
costs totaling $15,079,608 for prescriptions written by excluded providers. CMS used these PDE
data when it reconciled Medicare Part D payments to sponsors at the end of the plan year.

Furthermore, CMS accepted PDE data with gross drug costs totaling an additional $1,985,315
for prescriptions that may have been written by excluded providers. The PDE records for these
prescriptions contained State license numbers in the provider identifier data field. State license
numbers may be duplicated from one State to another; therefore, they cannot reliably verify that
a provider is not excluded.

INADEQUATE CONTROLS TO PREVENT ACCEPTANCE OF
PRESCRIPTIONS WRITTEN BY EXCLUDED PROVIDERS

CMS accepted PDE data submitted by sponsors for prescriptions written by excluded providers
because it had inadequate internal controls during our review. Specifically:

   •   CMS’s Prescription Drug Benefit Manual, chapter 9, § 50.2.6.3.3, states that sponsors
       should (a) review the LEIE to identify excluded providers and (b) have a process in place
       to deny claims for prescriptions written by excluded providers. However, because the
       LEIE does not currently contain the prescriber identifiers that are generally used in
       Medicare Part D, sponsors may not have been able to identify prescriptions written by
       excluded providers as quickly as they could have if they had access to the MED.
       Sponsors could more effectively identify excluded providers if CMS were to give the
       sponsors the same access to the MED that other entities, such as Medicare administrative
       contractors, fiscal intermediaries, and Medicaid State agencies, already have. The MED
       contains additional identifying information, such as an excluded provider’s NPI, that
       would assist CMS in ensuring that it does not accept PDE data submitted by sponsors for
       prescriptions written by excluded providers. However, to effectively identify all
       excluded providers, the MED must contain all of the prescriber identifiers that CMS
       allows the sponsors to use.

   •   CMS allowed sponsors to use State license numbers that are not unique and are not listed
       on the LEIE or MED in the prescriber identifier data field of PDE records. Because State
       license numbers may be duplicated from one State to another, they are not credible
       sources for unique prescriber identifiers.




                                                 5
      •    CMS did not have an edit in place to reject PDE data submitted by sponsors for
           prescriptions written by excluded providers. Without an edit, CMS had to rely on
           sponsors to identify and deny claims for prescriptions written by excluded providers.

RECOMMENDATIONS

We recommend that CMS:

  •       to resolve improper Part D payments made for prescriptions written by excluded providers,
          reopen and revise CY 2006 through 2008 final payment determinations to remove
          prescriptions written by excluded providers and

  •       strengthen internal controls to ensure that, in accordance with Federal regulations,
          prescriptions written by excluded providers are not paid under the Part D program by:

           o researching and incorporating into the MED all of the provider identifiers that CMS
             allows sponsors to use,

           o providing sponsors with access to the MED and requiring them to use the MED to
             ensure that prescriptions written by excluded providers are not accepted,

           o prohibiting sponsors from using State license numbers in the prescriber identifier
             field of PDE records, and

           o establishing an edit that would reject any PDE data submitted by sponsors for
             prescriptions written by excluded providers.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CMS concurred with our first recommendation but
added that it would explore the feasibility and cost-effectiveness of implementing it. CMS
partially concurred with our second recommendation and described corrective actions that it had
taken or planned to take. A summary of CMS’s comments regarding our second
recommendation and our responses follows. CMS’s comments appear in their entirety as the
Appendix.

Nothing in CMS’s comments has caused us to change our findings or recommendations. As the
administrator of the Medicare Part D program, CMS has the primary responsibility to ensure that
sponsors are administering their Part D plans appropriately.




                                                   6
Controls for Researching and Incorporating All of the Provider Identifiers
Into the Medicare Exclusion Database

Centers for Medicare & Medicaid Services Comments

CMS stated that it began providing MED monthly files, which include the NPI among other
provider identifying information, to sponsors in July 2011.

Office of Inspector General Response

Although CMS said that it was now providing the MED to sponsors, CMS did not address our
recommendation to research and incorporate into the MED all of the provider identifiers that
CMS allows sponsors to use. To ensure that sponsors accurately and efficiently identify those
prescribers that have been excluded, CMS must ensure that the MED is comprehensive and
contains all of the identifiers associated with each excluded provider. We therefore continue to
recommend that CMS research and incorporate the missing provider identifiers into the MED.

Controls for Providing Sponsors Access to the Medicare Exclusion Database
and Requiring Them To Use It To Identify Excluded Providers

Centers for Medicare & Medicaid Services Comments

CMS said that it communicated system changes and expanded the distribution of the MED files
to all sponsors. CMS also stated that it will provide a monthly MED file to all sponsors that
signed up to receive it. CMS added that its existing guidance to sponsors instructs them to use
the OIG exclusion list (that is, the LEIE) and to use the MED in concert with that list, not in lieu
of it.

Office of Inspector General Response

The measures that CMS described in its comments should adequately address this part of our
second recommendation.

Controls for Prohibiting Sponsors From Using State License Numbers
in the Prescriber Identifier Field of Prescription Drug Event Records

Centers for Medicare & Medicaid Services Comments

CMS stated that it is considering rulemaking to require the exclusive use of the NPI for
prescriber identifiers on Part D PDEs.

Office of Inspector General Response

Allowing the use of alternative provider identifiers increases the risk that a sponsor would not
appropriately identify and prevent payments associated with an excluded provider. Until CMS
implements a rule that requires the exclusive use of the NPI, sponsors will continue to use



                                                 7
alternative provider identifiers that may not be readily identifiable or that may, as in the case of
State license numbers, be duplicated from one State to another.

Controls for Establishing an Edit That Would Reject Prescription
Drug Event Data Submitted by Sponsors for Prescriptions
Written by Excluded Providers

Centers for Medicare & Medicaid Services Comments

CMS agreed that it would be ideal for CMS to establish an edit that would reject any PDE data
submitted by sponsors for prescriptions written by excluded providers but would need to
determine the efficacy of such an edit.

Office of Inspector General Response

Without an edit in place, CMS is relying on sponsors to identify prescriptions written by
excluded providers. This is an unrealistic expectation given the number of sponsors and the
variability in the efficacy of their controls. Furthermore, sponsors may not be able to adequately
identify excluded providers if they are not receiving and using a comprehensive MED. The edit
that we are recommending would be an effective control for denying payments for prescriptions
written by excluded providers.




                                                  8
APPENDIX
                                                                                                                 Page 1 of 3


APPENDIX: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS



(~	    DEPARTMENT OF HEALnt .. HUMAN SERVICES                                    Cenl8,. 101' Medicare & MedIcaid Sel'llioe&


,~           	                                                                   AdmillutrtZto,
                                                                                 WlIshlngton. DC 20201




     DATE:            SEP 212011
     TO: 	          Daniel R. Levinson 

                    Inspector General 


      FROM: 	       D0ru:'~
                          M. Berwick.
                    Administrator          -=M.~          (\ \
                                              ==--='y",V'J..J)       f\A
                                                                     r ~yv-
                                                                           ~                   .   ~At\.
      SUBJECT: 	 Office of Inspector General (OIG) Draft Report: "Review of Excluded Providers
                    in the Medicare Part D Program" (A-07-10-06004)


      The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
      comment on the Office ofInspector General (OIG) draft report entitled "Review ofExcluded
      Providers in the Medicare Part D Program". The purpose of this audit was to determine
      whether CMS accepted prescription drug event (PDE) data submitted by sponsors for
      prescriptions written under the Part D program by excluded providers.

      The CMS has taken significant actions in the last few months to ensure that payments under
      Medicare for prescriptions written by physicians or other health care professionals who are
      excluded from Federal health care programs are not made. In July 2011, CMS began providing
      Part D plan sponsors with monthly Medicare Exclusion Database (MED) files that reflect the
      monthly updates provided by OIG to the list of Excluded IndividuaislEntities (LIEIE). Unlike
      the LIElE, the MED files include excluded providers' National Provider Identifier (NPI) -the
      prescriber identifier used by Part D plan sponsors on approximately 90 percent ofPDEs, greatly
      facilitating sponsors' ability to ensure they are not improperly paying for drugs prescribed by an
      excluded provider. In addition. CMS issued guidance to all Part D plan sponsors reminding
      them of the prohibition against making payments for a prescription written by an excluded
      provider.

      We appreciate the OIG's efforts in working with CMS in identifying vulnerabilities in the
      Medicare program. Our response to each of the OIG recommendations follows:

      OIG Recommendation

      To resolve improper Part D payments made for prescriptions written by excluded providers,
      CMS should reopen and revise calendar year 2006 through 2008 final payment determinations to
      remove prescriptions written by excluded providers.
                                                                                                       Page 2of3




Page 2 - Daniel R. Levinson

CMS Response

The CMS concurs with this recommendation. The CMS agrees with the OIG's goal to resolve
improper Part D payments made for prescriptions written by excluded providers. However,
CMS needs to explore whether it is feasible and cost-effective to reopen final payment
determinations for calendar years 2006 through 2008 to recover the portion of the estimated $17
million in gross drug costs for prescriptions written by excluded providers which was paid for by
Medicare.

QIG Re£ommendation

The CMS should strengthen internal controls to ensure that, in accordance with Federal
regulations, prescriptions written by excluded providers are not paid under the Part D program.

CMS Response

The CMS partially concurs with this recommendation. Detailed responses to each of this 

recommendation's sections follow. 


        (a) By re8earching and incorporating into the MED all of the providers' identifies
        that CMS allows sponsors to use.

        The CMS began providing MED monthly files to Part D plan sponsors in July 2011.
        These files contain the following provider identifying information: name, SSN, UPIN,
        NPI, NSC number, and EIN number. CMS believes that the addition ofthe NPI will
        enhance the ability of plan sponsors to identify excluded providers.

        (b) By providing sponsors with aecess to the MED and requiring them to use the
        MED to ensure that prescriptions written by excluded providers are not accepted.

         CMS released a MED newsletter to all Part D plans sponsors. The MED Newsletter
        communicated system changes and expansion of the distribution of the MED file to all
        Part D plan Sponsors. The newsletter contained enrollment instructions for Part D plan
        sponsors to receive monthly MED files as well as information on a web based system that
        allows users to download provider sanctions and re-instatement files. Plan sponsors who
        signed up to receive the MED will receive a monthly MED file via a secure connection
        and gain access to historic MED file information via the MED website. MED files were
        made available to all participating Part D plan sponsors in July 2011.

        In addition, existing guidance requires Part D sponsors to utilize the OIG exclusion list to
        ensure that prescriptions written by excluded providers are not paid under the part D
        program. The existing guidance instructs plan sponsors to use the MED in concert with
        the OIG exclusion list, not in lieu ofit.

        (c) By prohibiting sponsors from using State license numbers in the prescriber
        identifier field of PDE records.
                                                                                                  Page 3 of 3




Page 3 - Daniel R. Levinson


      As stated in the 2012 Call Letter issued April 4, 2011, CMS is considering rulemaking to
      require the exclusive use ofthe NPI for prescriber identifiers on Part D PDEs.

       (d) By establishing an edit that would reject any PDE data submitted by sponson
       for prescriptions written by excluded providers.

       The CMS agrees that it would be ideal for CMS to establish an edit that would reject any
       PDE data submitted by sponsors for prescriptions written by excluded providers.
       However, CMS needs to determine the efficacy of such an edit.

Again, we appreciate the opportunity to comment on this draft report and look forward to
working with OIG on this and other issues.
